V

q

a -7^0
° ^ ^

" r\ r

No. ___

:

.'W;1

11
.;■■

Supreme Court, U.S.
FILED

JAM 1 9 202;
OFFICE OF THC CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

MARCUS TURNER

— PETITIONER

(Your Name)

vs.

WARDEN DAVID GRAY

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE OHIO

Aima^^ISTO:lCr

(NAME OF COURT THAT LAST RULED ON MERITS OFJYOUR CASE)
PETITION FOR WRIT OF CERTIORARI

j^vj'

—>.------- - ,

Marcus TUmer iMcocse c]
(Your Name)

#670-894 BELMONT CORRECTIONAL INSTITUTION P ;0 Box 540
(Address)

St. Clairsville, Ohio 43950
(City, State, Zip Code)

(Phone Number)

-\

QUESTION(S) PRESENTED

(1.) Does the Double Jeopardy Clause of the Fifth Amendment bar a second
prosecution and punishment for the crimes of Felony-murder and Felonious
assault following a prosecution for Aggravated Murder, Felony Murder and
Felonious Assault? Which prosecution resulted in an acquittal on aggravated
murder, and no event (hung jury) on felony murder and felonious assault. When
the second prosecution presents the same case and evidence (ultimate issue of
fact) as in the first trial. And felony murder and felonious assault are also
lesser included offenses of aggravated murder of which the defendant was
acquitted.
(2.) How does the defendant's due process right under the Fourteenth Amendment
to not be convicted of a crime accept upon proof beyond a reasonable doubt
apply in this case. The prosecution's case clearly evidenced that someone
other than the defendant caused the death of the victim this fact resulted in
an acquittal in the first trial. However, the state departs from this
constitutional guarantee to sustain a conviction on behalf of the state in a
second trial based upon these same facts.
(3.) How does the Strickland Standard apply in this particular case? The
defendant's appellate attorney fails to notify him of the Court of Appeals
ruling affirming his conviction, causing him to miss the deadline to file an
appeal in the State Supreme Court. This fact is not disputed. However, the
Sixth Circuit Court of Appeals denies certificate of appealability on this
issue because it agreed with the State that defendant should have argued
ineffective assistance of counsel on this issue in an application to reopen
his appeal. Which completely departs from state and federal law that
communications or the lack thereof fall outside of the record, and cannot be
raised in an application to reopen his appeal that only deals exclusively with
matters on the record. Which he supports with case law. Is this a departure
from the Strickland Standard in order to deny certificate of appealability?

t

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Marcus Turner v. Gray, No. 5:18-CV,-01285-PAG, United States District Court
Northern District of Ohio, Eastern Division, Judgment Entered May 20. 2020.
Marcus Turner v. Gray, No. 20-3675, United States Court of Appeals For the
State v. Turnerr^0n-Chio-5560, Ohio App. 9ttTDist. Jun. 28, 2017.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

Decision of the United States Court of Appeals For the Sixth
Circuit.

APPENDIX B

Decision of the United States District Court, Northern
District of Ohio, Eastern Division.

APPENDIX C

Magistrate's Report and Recommendation in United States
District Court, Northern District of Ohio, Eastern
Division.

APPENDIX D

Decision of the Court of Appeals of Ohio, Ninth Appellate
District.

APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER
Yeager v. United States, 557 U.S. 110, 129 S.Ct. 2360, 174 L.Ed. 2d 78 (2009)
Ashe v. Swenson, 397 U.S. 436, 90 S.Ct. 1189, 25 L.Ed. 2d 469 (1970)
In Re Winship, (1970) 397 U.S. 358, 364, 90 S.Ct. 1068, 1073, 25 L.Ed. 2d 368,
375.
Jackson V. Virginia, (1979), 443 U.S. 307, 99 S.Ct. 278, 61 L.Ed. 2d 560.
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed. 2d 674 (1984)

STATUTES AND RULES
N/A

OTHER
N/A

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix f-'A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

p

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix___D— to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided mv case
was
October 15, 2020_____
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_____ _______
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______

June 28, 2017

[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

u
United States Constitution, Amendment V
No person shall be held to answer for a capitol, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases in the
land or naval forces, or in the militia, when actual service in time of war or
public danger, nor shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law, nor shall private property be taken for
public use, without just compensation.
United States Constitution, Amendment VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the state and district wherein the
crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witness against him, to have compulsory
process for obtaining witnesses in hill favor, and to have the assistance of
counsel for his defense.
United States Constitution, Amendment XIV
All persons bom or naturalized in the United States and subject to the
jurisdiction therelif, are citizens of the United States and of the state
wherein they reside. No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property, without due
process of law; nor deny any person within it jurisdiction the equal
protection of the laws.

STATEMENT OF THE CASE
Petitioner Turner was indicted on charges of aggravated murder, felony
murder, felonious assault, and having a weapon under disability. The jury
convicted Turner of having a weapon under disability because a witness claimed
to have seen him with a gun hours prior to the victim in this case being shot.
The jury acquitted Ttimer of aggravated murder, and could not reach a verdict
on the felony-murder and felonious assault charges. He was sentenced to 36
months of imprisonment for having a weapon while under disability, and retrial
was scheduled for the felony-murder charges. Prior to retrial, Turner filed a
motion to dismiss the felony-murder charge, and arguing that a retrilll on that
count would violate the Double Jeopardy Clause. The trial court denied the
motion, the state appellate court affirmed, and the Ohio Supreme Court
declined to accept jurisdiction over the appeal. State v. Turner, No. 27532,
2015 WL 1227869 (Ohio Ct.App. Mar, 18, 2015).
After retrial Turner was convicted by a jury of felony murder and
felonious assault and received an aggregate sentence of 18 years to life
imprisonment. The state appellate court affirmed his conviction and sentence,
and the Ohio Supreme Court denied his motion for delayed appeal. His request
for delayed appeal was based on the undisputed fact that his appellate
attorney failed to notify him his claim of insufficient evidence under the
Fourteenth Amendment had been denied and his convictions affirmed by the court
of appeals. That lack of notification caused him to miss the 45 day deadline
to move the Ohio Supreme Court to accept jurisdiction to review is case. The
Ohio Supreme Court gave no reason for its denial of his request for delayed
appeal, and never addressed his claim against counsel. State v. Turner, No.
28298, 2017 WL 2803118 (Olio Ct.App. June28, 2017).

After filing the motion for delayed appeal, Turner filed an application
to reopen his appeal pursuant to Ohio Appellate Rule 26(B), arguing that he
received ineffective assistance of appellate counsel for failing to raise the
following errors on appeal: (1) Appellant's conviction for having a weapon
under disability based upon insufficient evidence. (2) Counsel violate
appellant's right to effective assistance of counsel in the manner in which he
asserted his insufficient evidence argument. (The court ruled the argument was
in essence a manifest weight of evidence argument and denied the argument).
The Court erred by calling Carlton Smith as its own witness. (Snith was the
witness that initially indicted Turner in the crime then admitted at the
second trial he hadn't seen Turner or anyone else shoot the victim.) (4) The
Court erred by denying defendant's motion for mistrial after unsworn testimony
was given to the jury. The state appellate court denied the application, and
the Ohio Supreme Court declined to accept jurisdiction over the appeal.
Thmer then filed a petitoner for writ of habeas corpus, arguing that
there was insufficient evidence in support of his convictions for felony­
murder and felonious assault, he received ineffective assistance of appellate
counsel, and his convictions for felony-murder and felonious assault violate
the Double Jeopardy Clause. The district court denied the 2254 petition and
decline to issue a certificate of appealability. Turner v. Gray, No. 5:18-CV01285, 2020 WL 2572322 (N.D. Ohio May 20, 2020). The United States Court of
Appeals for Sixth Circuit also denied his request for certificate of
appealability. Turner v. Gray, No. 20-3675 October 15, 2020.

REASONS FOR GRANTING THE PETITION

In this case the State was permitted a second trial of the petitioner in
violation of his Fifth Amendment Right to not be twice put in jeopardy for the
same offense. In the first trial the jury decided the issue of ultimate fact.
Ihat the petitioner had not caused the death of the victim. So the question is
why was the prosecution given a second bite at the apple? In the first trial
the state had every opportunity to present a case for felony-murder and
felonious assault. However, the prosecution presented not case for it, so the
jury hung on those counts. This non-event by the jury was not due to any
confusion of the evidence presented. Why are they given a secong opportunity
when defendant's across this country is only afforded one chance to prove
thier defense.
The lower court decisions, both state and federal, are in conflict with
precedent of this court on how to determine what the issue of ultimate fact is
in a given case. Therefore, the lower court needs this court's guidance on
these issues. More specifically, because the lower court's have taken on the
position of being a friend to the prosecution, over defending the
constitution. In this case the lower court's simply adopted the prosecution's
position on this matter which set in place a deference to that decision when
it is a clear violation of the double jeopardy clause. This case is a glaring
example of the need for this court's discretionary jurisdiction to pull these
lower courts back to neutrality as guaranteed by the Fourteenth Amendment.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
QACUOk ^tu/vnSAJ
Date:

II \hOX\

